<html>
<title> - EMPOWERING MANAGERS: IDEAS FOR A MORE EFFECTIVE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 115-11]
[From the U.S. Government Publishing Office]









                                                         S. Hrg. 115-11

   EMPOWERING MANAGERS: IDEAS FOR A MORE EFFECTIVE FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 9, 2017

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-020 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          













        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
                     John Cuaderess, Staff Director
                  Eric Bursch, Minority Staff Director
     Katie Delacenserie, Subcommittee Clerk and Committee Archivist
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     3
    Senator Carper...............................................    11
    Senator Harris...............................................    13
    Senator Hassan...............................................    14
    Senator Portman..............................................    21
Prepared statement:
    Senator Lankford.............................................    35
    Senator Haitkamp.............................................    37

                               WITNESSES
                       Thursday, February 9, 2017

Renee M. Johnson, National President, Federal Managers 
  Association....................................................     5
Bill Valdez, President, Senior Executives Association............     6
Robert E. Corsi, Jr., Former Assistant Deputy Chief of Staff for 
  Manpower, Personnel & Services, United States Air Force........     8
J. David Cox, Sr., National President, American Federation of 
  Government Employees, AFL-CIO..................................    10

                     Alphabetical List of Witnesses

Corsi, Robert E. Jr.:
    Testimony....................................................     8
    Prepared statement...........................................    66
Cox, J. David Sr.:
    Testimony....................................................    10
    Prepared statement...........................................    76
Johnson, Renee M.:
    Testimony....................................................     5
    Prepared statement...........................................    39
Valdez, Bill:
    Testimony....................................................     6
    Prepared statement...........................................    49

                                APPENDIX

Statement submitted by National Treasury Employee Union..........    86
Statement submitted by Professional Managers Association.........    90

 
   EMPOWERING MANAGERS: IDEAS FOR A MORE EFFECTIVE FEDERAL WORKFORCE

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2017

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Portman, Heitkamp, Carper, 
Hassan, and Harris.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning and welcome. Today's 
Subcommittee hearing is entitled ``Empowering Managers: Ideas 
for a More Effective Federal Workforce.'' In the 115th 
Congress, this Subcommittee will work to find consensus 
solutions to the broadly recognized challenges which prevent 
the Federal workforce from effectively serving the American 
people.
    Federal agencies employ some of the best and brightest 
individuals this country has to offer. Every day Federal civil 
servants help protect our communities, provide essential care 
for our veterans, keep our airports running safely and 
smoothly, and our military running extremely effectively. We 
are grateful for their diligence, and we are interested in 
their ideas and concerns.
    I acknowledge that many citizens and Federal employees 
themselves recognize that the important work of our Federal 
employees is often obstructed by a culture that rewards 
attendance over initiative, a culture that does not 
differentiate between poor performers and those who excel. In 
fact, it is the high-performing Federal workers who often 
complain that their underperforming counterparts harm workplace 
morale, drive down agency objectives, and raise concerns that 
compensation is not appropriately related to one's job 
performance.
    For instance, the Office of Personnel Management's (OPM) 
2016 Federal Employee Viewpoint Survey (FEVS) found that a mere 
22 percent of employees agreed with this statement: Pay raises 
depend on how well employees perform their jobs.
    While the government fails to appropriately compensate 
employees based on their performance, managers and agency 
executives face additional challenges. Specifically, Federal 
managers are frustrated by an extremely complicated and time-
consuming hiring process, something this Committee has talked 
about often.
    In 2016, it took an average of 100 days to fill an open 
position in the Federal Government. In 2015, it took 90 days. 
The problem is getting worse. Many highly qualified applicants 
cannot wait over 3 months to start work. Managers need 
employees to start work promptly to achieve their agencies' 
mission and, may I add, managers need to hire appropriately to 
make sure that we are hiring the right people in the right 
spot.
    Whenever there is an ongoing structural problem within the 
system, it is our responsibility and our duty to address it. 
The civil service structure as we know it today was created in 
the 1950s as a result of the Hoover Commission. The last time 
Congress accomplished significant governmentwide reform was in 
the Civil Service Reform Act (CSRA) of 1978. No successful 
business operates an employment model from the 1950s, and no 
effective workplace runs on a system that was last updated in 
the 1970s.
    Through authorities granted by Congress, the President can 
implement governmentwide policies to improve the functioning of 
the entire Federal workforce. On January 23, 2017, the 
President issued a memorandum for the heads of executive 
departments and agencies establishing a hiring freeze until the 
incoming Director of the Office of Management and Budget (OMB) 
recommends a long-term plan to reduce the size of the Federal 
Government's workforce through attrition. President Trump's 
hiring freeze is a similar memorandum issued by past 
Presidents. For instance, in 1977 President Carter and in 1981 
President Reagan issued broad hiring freezes for executive 
agencies.
    As the Chief Executive of the Federal Government, President 
Trump is responding to widespread frustration voiced by the 
American people with their government, but not necessarily with 
individual employees. Attrition through a hiring freeze may not 
be the optimal solution for creating an efficient and effective 
Federal workforce. But in the absence of any notable 
legislative reforms to improve the Federal workforce, the 
administration has every right to alter the status quo through 
an executive action. Congress can either watch as the 
administration deals with the Federal workforce through 
executive actions, or it can find consensus and work with the 
administration and take up the mantle of substantive 
legislative reform.
    To do this, this Subcommittee plans to have a series of 
hearings to discuss a broad number of topics, including hiring, 
training, compensation, performance management, discipline, and 
separation, and we will invite a wide variety of viewpoints. In 
today's hearing, we will start with the perspective of Federal 
managers as we look to tackle some of these challenges. It is 
extremely important to hear from the managers and senior 
executives who confront these issues on a daily basis. As 
experienced managers and executives, our witnesses today will 
be able to provide unique perspectives on the difficulties they 
face within the civil service as managers and shine a light on 
potential bipartisan improvements. Even if we may differ on 
some of the answers, we may still see some of the same 
challenges. I hope my colleagues will join me in this pursuit, 
and I am confident they will. This is not a partisan issue. 
This is a nonpartisan issue.
    I am interested to work with every stakeholder to ensure 
Congress develops comprehensive reforms to set the Federal 
workforce and to continue to protect great employees in our 
Federal workforce and to make sure they continue to have good 
due process. I look forward to discussing with all of our 
witnesses today, and I am very grateful. I will introduce all 
of them in just a moment after our Ranking Member, Heidi 
Heitkamp, has her opening remarks.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thanks to my 
colleagues. Not always the sexiest of topics, public 
employment, but absolutely critical if we are going to do the 
best that we can for the people of this country.
    I think while it is inevitable we are going to discuss 
today the challenges of the hiring process, I think it is 
important to highlight that we are having this discussion 
against a backdrop of the current hiring freeze in the Federal 
Government. When the public sector in North Dakota cannot do 
its job, the private sector has a more difficult time doing its 
job, from making sure the food we eat is safe to answering 
taxpayers' inquiries about tax law, to ensuring our veterans 
are cared for, to protecting our Nation from harm, Federal 
employees in my State work every day to make my State and, in 
fact, the country better. When we fail to fill needed vacancies 
unnecessarily, the only people we are hurting are ourselves. 
And I want to tell a quick story.
    During the huge boom of oil development in North Dakota, we 
had a very difficult time recruiting Federal workers, 
engineers, into the agencies that help provide permitting. It 
was so bad, in fact, that the industry offered up resources to 
hire and to expand the pay of the current Federal employees. I 
think it was eye-opening for many of us who for years might say 
that the Federal employees are a drag on the economy to realize 
that the oil industry in my State could not function without a 
fully staffed Federal Bureau of Land Management (BLM).
    So across-the-board cuts and the shrinking of the overall 
Federal workforce are not the answer to making the Federal 
Government more efficient or more effective. These cuts will 
also come at the expense of talent, morale, and the mission of 
our workforce, none of which we can afford to lose.
    Managers play a vital role in the culture of an agency and 
are responsible for giving employees the tools they need to 
succeed and thrive in the workplace. While today's hearing, of 
course, is not focused on the hiring freeze, it is important to 
keep in mind how a freeze directly and indirectly impacts the 
ability of managers and employees to do their jobs effectively 
and keep morale high.
    I am looking forward to examining how we can help managers 
use the tools that are available to them more efficiently as 
well as how we can improve supervisor training. I will be doing 
all that I can to protect Federal workers, and I think it is 
important that we are in continued communication with the 
administration regarding how they plan to implement initiatives 
going forward.
    We have been at this table before, the two of us, talking 
about the aging of the Federal workforce, talking about 
recruiting the best and brightest Americans to a job and a 
career in public service. We have been here talking about what 
managers' tools we need. These are all great challenges in 
moving our country forward and making our government responsive 
to the needs of the people. We cannot take a step backward.
    And so, Mr. Chairman, I am grateful for our attention in 
this Congress to the Federal workforce. I hope that we will be 
able to see innovations that will lead to better outcomes for 
public employees, for public managers, and as a result, better 
outcomes for the people of our country.
    Thank you.
    Senator Lankford. Thank you.
    At this time let me proceed with the testimony from our 
witnesses and then swearing in our witnesses. Let me introduce 
all four of them first.
    Renee Johnson is the national president for the Federal 
Managers Association (FMA), an organization she has served in 
various capacities since 2009. She currently is the U.S. Navy 
customer engagement branch head at Fleet Readiness Center East 
in Cherry Point, North Carolina.
    Bill Valdez is the president of the Senior Executives 
Association (SEA). He is a former co-chair of the National 
Science and Technology Council's Science of Science Policy 
Interagency Working Group from 2005 to 2014. He retired from 
Federal service as a career senior executive in 2014 after 20 
years of service in the Department of Energy.
    Robert Corsi is the former Assistant Deputy Chief of Staff 
for Manpower, Personnel & Services for the U.S. Air Force. 
Prior to his 18 years of civilian service at the Senior 
Executive Service (SES), he served for 28 years on active duty 
in the U.S. Air Force. He retired from Federal service in 
October 2016.
    David Cox, who is the veteran in our group--he has been 
here before; we appreciate you coming back again--is the 
national president of the American Federation of Government 
Employees (AFGE). He worked for the Department of Veterans 
Affairs (VA) from 1983 to 2006, when he became the secretary-
treasurer of AFGE.
    To all four of you, we appreciate very much for you being 
here. We appreciate all of your written testimony that you have 
already submitted. It is very thorough and excellent, and that 
will, of course, go into the permanent record.
    It is the custom of this Subcommittee that we swear in all 
witnesses before they testify, so if you do not mind, would you 
please stand and raise your right hand? Do you swear that the 
testimony you are about to give before this Subcommittee will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Ms. Johnson. I do.
    Mr. Valdez. I do.
    Mr. Corsi. I do.
    Mr. Cox. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect all the witnesses answered in the 
affirmative.
    We use a timing clock here, which will be a 5-minute 
countdown for your testimony time. Ms. Johnson, you will go 
first in that time period. If you would just turn your 
microphone on, we would be glad to be able to receive your 
testimony.

 TESTIMONY OF RENEE M. JOHNSON,\1\ NATIONAL PRESIDENT, FEDERAL 
                      MANAGERS ASSOCIATION

    Ms. Johnson. Thank you, Chairman Lankford, Ranking Member 
Heitkamp, and Members of the Subcommittee. I appreciate your 
allowing me to present the views of the Federal Managers 
Association before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    I am currently employed at Fleet Readiness Center East in 
North Carolina as customer engagement branch head. I am here 
today as the national president of FMA on my own time 
representing my active and retired members, and I do not speak 
on behalf of the Navy. FMA's mission is to advocate excellence 
in public service, so we are honored to appear today to discuss 
ways to empower managers as we seek a more efficient and 
effective Federal Government.
    In my written testimony, I addressed a number of issues 
related to recruitment, hiring, performance management, 
termination, and other topics. As FMA's national president, I 
hear how proud our members are to serve our Nation. I am 
pleased to note FMA has chapters in both Tinker Air Force Base 
and McAlester Army Ammunition Plant in Oklahoma, providing 
resources for national security. We also have members ensuring 
Americans receive their Social Security checks, collecting 
taxes to fund public safety measures, and protecting the 
Nation's food supply, to name just a few of the critical 
functions provided by Federal employees.
    To begin, FMA members often describe the current hiring 
process as too cumbersome and time-consuming. The most recent 
defense authorization bills lend support for direct hire 
authority, and FMA sees this as a potential avenue to allow 
managers to expedite the hiring process.
    FMA also seeks to allow for salary adjustments to compete 
for new wage grade hires. The Federal Government makes 
significant investments in these employees, and often they 
leave for the private sector before they even finish a year of 
service. Managers should have options to adjust hiring packages 
to reflect the unique circumstances in their areas.
    While FMA is opposed to the current hiring freeze 
instituted by the new administration, we are more concerned 
with the potential proposals for hiring in the long term, 
specifically blind attrition policies. All Federal agencies 
should be allowed to match hiring actions that align with their 
congressionally mandated missions and funding.
    Regarding performance management, FMA supports a system 
that provides incentives such as pay for performance. 
Departments and agencies must have maximum flexibility as we 
compete with the private sector to attract the best and the 
brightest workforce to answer the call of public service.
    Managers must be able to address both misconduct and poor 
performance. Currently, many managers feel it is easier to keep 
poor performers and deal with their subpar performance rather 
than take steps to document and convince the agency of removal. 
All employees, including managers, should be held accountable 
for executing their duties and responsibilities. At the same 
time, FMA adamantly opposes efforts to reduce or eliminate due 
process for Federal employees.
    First-level supervisors and managers need access to 
adequately funded training programs. Investments must be made 
in training to assist managers to recognize problems early and 
deal with them at the lowest possible level.
    FMA calls for the reintroduction of legislation that 
requires agencies to provide supervisors with interactive, 
instructor-based training on management topics ranging from 
mentorship, career development, and conducting accurate 
performance appraisals to hostile work environments and poor 
performers. Training should take place within one year of 
promotion, with ongoing training every 3 years thereafter.
    Initial and supervisory probationary periods are intended 
to be an extension of the hiring process. It is a time to 
evaluate the employee or manager and determine whether they are 
suited not just for their current position but for Federal 
service in general.
    Some career fields are so complex that it takes more than 
one year to properly train an entry-level employee. In the 2015 
defense authorization bill, Congress extended the probationary 
period for all employees at the Department of Defense (DOD) to 
2 years. Extending the probationary period at other Federal 
agencies would benefit both the government and the employees by 
allowing supervisors to make decisions based on the employee's 
performance as fully trained employees, not just guess how the 
employee will perform after the training is complete.
    I commend the Subcommittee for holding this hearing early 
in Congress to discuss how to best equip those of us charged in 
management with managing the Federal workforce and to ensure we 
are equipped to meet the agencies' goals.
    Thank you again for affording Federal Managers Association 
the opportunity to express our organization's views. I am eager 
to answer any questions you may have.
    Senator Lankford. Thank you. Mr. Valdez.

   TESTIMONY OF BILL VALDEZ,\1\ PRESIDENT, SENIOR EXECUTIVES 
                          ASSOCIATION

    Mr. Valdez. Chairman Lankford, Ranking Member Heitkamp, and 
Members of the Subcommittee, thank you for the opportunity to 
testify before the Subcommittee today. The Senior Executives 
Association and our members are eager to work with you and the 
new administration to develop common-sense solutions to the 
challenges that we know confront the civil service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Valdez appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    The 7,200 career senior executives play a vital role when 
implementing positive change in the government. Utilizing their 
depth of experience and knowledge will be critical as we 
develop the common-sense solutions we all know are required. My 
written testimony discusses many of those possible solutions, 
and I am ready to provide more information or answer any 
questions you might have.
    I would like to focus my remarks today on several broad 
issues that will help inform that discussion, namely, the 
answer to three questions.
    First, are Federal leaders currently empowered to 
effectively manage the Federal workforce?
    Second, what are the constraints on empowerment?
    And, third, what are the most impactful solutions that we 
should pursue?
    The answer to the first question, sadly, is no. There are 
two root causes for this lack of empowerment:
    First, the complexity of workforce management processes and 
rules makes it extremely difficult for Federal leaders to be 
sufficiently empowered. Navigating the maze of human resources 
(H.R.) rules and regulations while also focusing on the primary 
objective of a Federal leader fulfilling their agency's mission 
is a difficult task for even the most adept Federal leader.
    Second, Federal leaders lack the tools they require to 
effectively manage their workforce when achieving 21st Century 
missions. Corporate America correctly recognizes that it needs 
to know the composition of its workforce, the best places to 
hire talent, and how to use risk-reward frameworks to 
incentivize their workforces. In the Federal Government, the 
tools that would enable Federal leaders to do the same are not 
available.
    This leads to the discussion on constraints on empowerment. 
I would put them into three baskets.
    The first basket is the complexity of Federal workforce 
management. Anyone, including Federal leaders, would be 
overwhelmed by rules and regulations that are often seemingly 
contradictory. This was most apparent in the hiring process, 
which forces a leader to make compromises that can often result 
in the best qualified candidates not being chosen.
    The second basket is the many routes of appeal or forum 
shopping for employees contesting a particular personnel 
action. The threat of an Inspector General (IG) or an Equal 
Employment Opportunity (EEO) complaint or a union grievance can 
stop a leader cold when dealing with poor performance. 
Accountability is difficult to impose on a workforce that has 
so many avenues of appeal at their disposal.
    By the way, my experience is that forum shopping occurs 
whether we are talking about a GS-2 or an SES.
    The third basket is an absence of a functioning risk-reward 
framework. Leaders should encourage their workforce to take 
measured risk when executing programs that advance an agency's 
mission and then should reward those employees appropriately. 
Instead, risk is devalued, and reward such as raises and 
bonuses are tied to tenure and general performance. This 
discourages innovation and rewards average performance.
    My top three recommendations are tied to these constraints.
    First, please help us by reducing the complexity of 
workforce rules and regulations, particularly on hiring. We 
make several recommendations in my written testimony.
    Second, let us figure out a way to simplify employee 
appeals of an adverse personnel action. We are fully supportive 
of EEO, IG, whistleblower, and union grievance processes and 
believe they have their appropriate place in the Federal 
workforce framework. But a separate process for the resolution 
of personnel performance issues must be developed.
    Finally, we desperately need a new risk-reward framework 
particularly tied to annual performance reviews. Federal 
leaders want to reward high performers and distinguish high 
performance from the routine delivery of services by an 
employee. Not everyone deserves to be promoted or get a bonus. 
It should be earned and recognized.
    I would like to conclude by thanking the Subcommittee for 
holding today's hearing. The Senior Executives Association and 
our members are deeply grateful for your thought leadership on 
this issue, and we look forward to working with you to restore 
the notion of a civil service that is regarded as world-class 
and worthy of the public trust that has been given to it. Every 
day, as you noted, Mr. Chairman, millions of Federal employees 
are doing amazing things on behalf of the American taxpayer--
managing public lands, defending the homeland, protecting the 
environment, and helping to build in an innovation economy, to 
name just a few. You should take great satisfaction in knowing 
that the work this Subcommittee is doing will help all Federal 
employees and leaders accomplish their vital missions more 
effectively and efficiently.
    Senator Lankford. Thank you, Mr. Valdez. Mr. Corsi.

 TESTIMONY OF ROBERT E. CORSI, JR.,\1\ FORMER ASSISTANT DEPUTY 
   CHIEF OF STAFF FOR MANPOWER, PERSONNEL & SERVICES, UNITED 
                        STATES AIR FORCE

    Mr. Corsi. Thank you, Chairman Lankford, Ranking Member 
Heitkamp, and Members of the Subcommittee, for the opportunity 
to share my experiences of over 46 years in the Air Force in 
both my military capacity and as a member of the Senior 
Executive Service to assist the Committee in finding ways to 
improve the management of the Federal workforce. In both my 
roles, I have had the distinct honor of working with some of 
the most professional, dedicated, and incredibly humble career 
civilians. Whatever reforms you are contemplating need to 
recognize the importance of our career civilian workforce in 
providing that necessary continuity during periods of high 
leadership turnover and that we, above all, hold them in high 
regard.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Corsi appears in the Appendix on 
page 66.
---------------------------------------------------------------------------
    My comments, oral and written, will literally address most 
aspects of managing the civilian workforce. I would be the 
first to say that the civilian system needs major rework. The 
system has evolved over many years but fundamentally has not 
changed since its inception. What has changed is a very dynamic 
budget environment, a workforce that is unjustifiably held in 
disregard, and pressures to reduce the workforce without 
knowing the true work requirements.
    Managers are consumed on a daily basis with budget 
uncertainty, dealing with a 90-year-old pay system that rewards 
longevity, archaic hiring practices that do not allow agencies 
to compete on a level playing field with the private sector, 
the lack of ability to develop and shape their workforces, and 
grievance and complaint processes that drag on for years.
    On any given day, we have approximately 2.1 million Federal 
employees on board, excluding postal, which equates to 
approximately $210 billion per year using an average of about 
$100,000 per person. For the most part, there has never been an 
analytic foundation to support the level of Federal employees. 
To its credit, the DOD has a requirements-driven process with 
manpower professionals to determine both its military and 
civilian levels.
    Most Federal agencies do not have that same rigor and are 
ill-prepared to defend their manpower levels. Most agency heads 
are blind to their true manpower requirements, and most have no 
centralized accounting for their manpower and skill levels at 
every level in their organizations.
    Fiscal pressures demand that agencies need to justify the 
size of their workforce. This will require Congress to insist 
that workforce levels are requirements-based, that agency heads 
can defend their manpower levels, and that authoritative 
documents support those levels.
    But Congress must also help with timely budgets and 
consider giving agencies a planning target for personnel levels 
for an additional 2 years to allow managers to make more 
informed decisions. For over 90 years, we have had the General 
Schedule (GS) pay 
system. Locality pay, special pay authorities, expanding the 
workforces under non-GS pay demonstration projects, and 
longevity, not performance-based increases, all make a 
compelling case to eliminate the General Schedule pay system. 
The time is now to export the lessons learned from pay 
demonstration projects and to move forward with a pay-for-
performance system.
    There are significant challenges with managing the Federal 
workforce. There are no requirements for agencies to have human 
capital strategic plans with the proper analytics to guide 
current and future force shaping. Managers are mired in a 
hiring process that significantly limits their ability to 
compete with the private sector. And, there are limited tools 
in hiring authority for agency heads to attract and retain the 
best talent. Congress can help by directing OPM to: one, ensure 
that all agencies have viable human capital strategic plans; 
two, give agency heads all decision authorities to use direct 
hires to meet their critical skill needs; three, ensure that 
all agencies have the authority to shape their workforces 
without OPM approval; and four, require every agency to have a 
formal civilian training and development program.
    Congress can also help by providing dedicated and, 
importantly, fenced training monies in the agency budgets. Any 
changes that will give agency heads more authority to manage 
their workforce and to empower them with the proper tools will 
pay great dividends in giving managers more time to be 
managers.
    I applaud the Committee for taking on this challenge. I 
offer my service to do whatever I can to help the Committee 
bring real positive change to the Federal workforce. Our 
country and our Federal employees deserve no less.
    I look forward to your questions.
    Senator Lankford. Thank you. Mr. Cox.

TESTIMONY OF J. DAVID COX, SR.,\1\ NATIONAL PRESIDENT, AMERICAN 
          FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Cox. Mr. Chairman, Ranking Member Heitkamp, and Members 
of the Subcommittee, thank you for the opportunity to testify 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cox appears in the Appendix on 
page 76.
---------------------------------------------------------------------------
    One of the most useful ways to frame policy questions that 
aim to address real or perceived problems is to ask what is 
needed: new laws or more effective enforcement of existing 
laws. On the question of whether current laws give Federal 
managers adequate authority to manage the Federal workforce or 
whether the new laws are needed to expand their authority, the 
answer is clear: No new laws are needed.
    America has the very best civil service in the world. This 
is something we should all be proud of and should celebrate. 
Virtually all studies of Federal employee performance find that 
the vast majority perform well. It is just a small percentage, 
probably less than one percent, that are problem employees. Yet 
the focus is so frequently on that minority rather than on the 
99-plus percent who are doing a great job every day caring for 
the American people.
    Since the late 19th Century, our Federal civil service has 
been a professional, apolitical civil service. Today we call it 
a ``merit-based'' system, and it is no overstatement to say it 
is a cornerstone of our democracy. It ensures that technical 
expertise is what matters in obtaining and keeping a Federal 
job, not allegiance to any political party or person.
    All of us benefit from a professional civil service. 
Veterans are the Fargo VA Medical Center need to be sure their 
doctors and nurses are highly qualified for their jobs. 
Mechanics at Tinker Air Force Base need to know avionics, not 
politics. The American public deserves Border Patrol agents and 
Social Security claims reps and the National Institute of 
Health (NIH) researchers hired because of their skills, not 
their connections.
    While agency career employees remain accountable to 
politically appointed officials, our merit-based system makes 
sure that actions against career employees for misconduct or 
poor performance require evidence to back up allegations and 
due process, including third-party review by neutral 
decisionmakers.
    When an employee receives notice of an adverse action, be 
it a suspension, demotion, or termination, the body that hears 
any appeal is called the Merit System Protection Board (MSPB). 
Note, that is a body focused on the protection of merit system, 
not the employee. And the MSPB is not only fast and efficient, 
it upholds agency management decisions in 80 to 90 percent of 
the cases.
    There is a popular perception that it is too hard to fire a 
Federal employee. The Government Accountability Office (GAOs) 
careful study, which I describe in my written statement, points 
out that these are cases of management failure. When 
managements are either unwilling or otherwise fail to use the 
already substantial tools available to them, the answer is not 
to weaken the merit system by reducing due process. The answer 
is to train and support and discipline managers so that they do 
their part to uphold and protect the merit system.
    Please, let us not throw out the baby with the bath water 
just to indulge Federal managers who will not or cannot do 
their jobs. History is full of examples of public service 
corrupted by politically based employment decisions. That is 
the reason we urge you to reject calls to weaken the merit-
based civil service. Federal hiring and firing must remain 
merit-based and subject to third-party review.
    Performance management improvements such as the New 
Beginnings approach recently undertaken in DOD are always 
welcomed, and we look forward to working with our lawmakers and 
agency managers to make this new program a success. We also 
support better training of both supervisors and employees so 
that clear expectations are established, performance metrics 
are clear, appropriate steps are taken to either fix 
performance problems or remove the small number of poor 
performers in the workforce.
    This concludes my statement, and I look forward to 
answering and talking about any questions with the Committee.
    Senator Lankford. Mr. Cox, thank you very much.
    Senator Heitkamp and I have a tradition that we defer our 
questions to the end, so with that, based on the order of 
attendance here at the gavel, I would recognize Senator Carper 
for questions.
    Senator Heitkamp. Senator Harris was here first.
    Senator Lankford. Senator Harris was here first? I would be 
glad to be able to do that. She got here before the gavel, but 
at the gavel you are the senior member that was here. Senator 
Harris, are you OK to go step up?
    Senator Harris. I am.
    Senator Lankford. You got it.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Harry Truman used to say that the only 
thing new in the world is the history we forgot or never 
learned. The names of Voinovich and Akaka remain as firm in my 
mind. As my colleagues know, I call my former colleagues on 
their birthday. I just talked to Danny Akaka last month. And I 
wish I could have called George Voinovich, but as you will 
recall, he passed away last year. But they spent an enormous 
amount of time in this room in the last decade dealing with 
many of these same issues. And I thank our witnesses today, we 
thank you for being here today. We thank you for your 
testimony. And we thank you for your service.
    I want those of you who may recall the efforts of Senators 
Akaka and Voinovich and their staff over several years, recall 
their efforts, talk to us about what they focused on, what was 
accomplished, and maybe where they fell short and what we need 
to do today as a result. And, Mr. Cox, you are pretty young, so 
you may not remember these guys.
    Mr. Cox. I am old now.
    Senator Carper. But just in case, why don't we start with 
you?
    Mr. Cox. Things that certainly I believe we need to do is--
--
    Senator Carper. Again, what I am looking for is what was 
accomplished under their leadership and maybe where did they 
fall short and that we need to take action.
    Mr. Cox. I saw a great concern from both of those leaders 
to have Federal employee managers particularly trained. Where 
do I believe we fell short--and I think some of my colleagues 
would agree with me, particularly my brother right here--that 
agencies do not fence off money for manager training. We have 
had short budgets so, therefore, training takes a back seat 
over and over.
    I have found in my career the best technician becomes the 
manager, but then that does not necessarily give them 
management skills. The agency needs to spend time helping that 
person to become a manager, giving them training, mentoring 
them so that they can encourage, develop employees, manage good 
performers, and recognize the good performers, and also take 
appropriate proper actions on poor performers.
    I want to say it very openly from AFGE. We do not want bad 
employees working for the Federal Government.
    Senator Carper. OK. You can hold it right there. That is a 
good place to hold it. Thank you for those comments. Mr. Corsi.
    Mr. Corsi. Sir, I would just echo Mr. Cox.
    Senator Carper. You do not have to agree with him.
    Mr. Corsi. We had raving fans back years ago for the 
Federal workforce, and the emphasis was on developing the 
Federal workforce.
    Senator Carper. Again, what was my question? My question, I 
want you to walk us back to what George Voinovich and Danny 
Akaka worked on. They were very proud of what was accomplished 
during their period of time. And you have been in a leadership 
position for some time. I am sure you remember them. What did 
they accomplish? And what did they not accomplish that we need 
to focus on today? Please.
    Mr. Corsi. I apologize. I cannot get into those specifics.
    Senator Carper. All right. Thank you. Mr. Valdez.
    Mr. Valdez. In general, I think the focus on pay for 
performance and making the Federal agencies make Federal 
employees more accountable was an admirable move on the part of 
the two Senators. I do not think that they were fully 
successful and that the work of this Subcommittee could be 
focused on those two areas, with a high degree of success.
    Senator Carper. All right. Thank you. Ms. Johnson.
    Ms. Johnson. Yes. Mr. Voinovich supported the agencies, 
demanded the resources that they need, I think was very 
important, something that needs to be supported with the budget 
requirements that are submitted from the agencies and should be 
supported by Congress whenever the budget is approved. Without 
having those resources in the agencies, it makes it very 
difficult for us to meet the mission demands of the agencies.
    Senator Carper. There was a long time ago a cartoon strip 
called ``Pogo'' that some of you will recall where Pogo was 
famously quoted as saying, ``We have met the enemy, and it is 
us.'' And I think we are, by virtue of not providing 
predictability and certainty with respect to budgets, relying 
on continuing resolutions (CR), stop and go, it is enormously 
expensive, it is enormously wasteful, as we were reminded by 
GAO, we will be reminded next week by GAO when they put out 
their high-risk list. But talk to us just very briefly--about--
my time has expired, so I am not going to pursue this. But I 
will just say if you agree that that is a problem, say yes.
    [Witnesses nodding heads yes.]
    Thank you. All right. Thanks so much.
    Senator Lankford. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. So it is my understanding that in the last 
couple of weeks, about 1,000 State Department employees signed 
on to the Dissent Channel to enable--to basically publicly note 
their disagreement with the Muslim ban Executive Order (EO). 
And following that, White House Press Secretary Sean Spicer 
said that those who disagree with the administration policy 
should, ``Get with the program or they should go.''
    Can each of you tell me your perspective on that statement 
and, in particular, what are the rights and the 
responsibilities of Federal employees to be able to freely 
dissent and point out whatever they believe is not in the best 
interest of the agency they work in or in the best interest of 
our country? And what are the protections that are available to 
them if they dissent? And I will start with you, Ms. Johnson.
    Ms. Johnson. I feel like as a Federal employee we are there 
to support the mission of the agency and the intent of the 
duties that have been presented to us. Whenever we are 
presented with restrictions that make it difficult, I do feel 
like that we should be allowed to express those concerns. But 
it is also important that we still try to accomplish the 
mission with those restrictions as well. We cannot stop the 
mission because of the restrictions. We have to be able to 
overcome those and try to find ways of working around them.
    Senator Harris. But do you agree with the importance of 
having the Dissent Channel and that ability for those employees 
in the State Department, using the example that I have offered, 
to be able to express their opinions?
    Ms. Johnson. Yes, ma'am.
    Senator Harris. Thank you. Mr. Valdez.
    Mr. Valdez. First, yes, I wish every agency had a Dissent 
Channel. In my experience, different agencies would set up, 
employee suggestion boxes, and those were used in the same 
manner to provide dissent or, comments on existing 
administration actions.
    Just as the going-in position, I think we should all 
understand that, all Federal employees swear an oath to the 
Constitution, to uphold the Constitution, and that they 
exercise those powers under the direction of the President of 
the United States. And if an employee feels, if a civil servant 
believes that what he or she is being asked to do is 
unconstitutional, unethical, criminal, or against existing 
regulations, then, yes, they have an obligation to speak up 
within authorized channels within the agency to express those 
views. And you can do that through the IG, through the 
whistleblower process.
    But it is not within the prerogative of Federal employees 
to not execute an order from the President that is 
constitutional, that is within regulations, and that is 
perceived by the administration to go to further the mission of 
the agency.
    Senator Harris. But you agree that they should be able to 
express their dissent without fear of being fired?
    Mr. Valdez. Within existing agency infrastructure and 
mechanisms.
    Senator Harris. Are you aware of any Federal agency that 
prohibits an employee from expressing their dissent and, if 
they do, on pain of being fired?
    Mr. Valdez. No.
    Senator Harris. OK. Mr. Corsi?
    Mr. Corsi. Senator, I do not know how to say it any better 
than Mr. Valdez. I mean, the State Department has a unique 
system in terms of being able to have that dissent network to 
get to the senior leaders in the State Department. Above all, 
day in and day out, the Federal employee is supposed to 
concentrate day in and day out on what their job is. We are 
supposed to not be political in anything that we do. And 
anything that would detract from that focus I would say is not 
productive. But, again, there are mechanisms in place to 
express concern with policies and procedures, and members know 
how to use those processes.
    Senator Harris. Thank you. Mr. Cox.
    Mr. Cox. I believe all of our contracts that AFGE has with 
any agency says that employees have their First Amendment 
rights to voice their concerns and raise those issues, and 
certainly there are whistleblower protections. However, AFGE 
always tells its membership if they are being asked to do 
something, unless it is illegal, to obey and grieve, go through 
that mechanism. I would never encourage an employee to be 
insubordinate, but certainly as Federal employees, we still 
have First Amendment rights to agree or disagree and to be an 
apolitical workforce in that nature.
    Senator Harris. Thank you.
    Senator Lankford. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member. 
And good morning to our panel, and thank you all very much for 
your testimony and for your work and for the employees you 
represent and speak for.
    I wanted to start, Mr. Corsi, to talk about budgeting 
predictability a little bit. In your testimony, you talk about 
budget predictability and its importance for management and 
government employment as an issue more broadly. I recently 
joined in introducing a bipartisan bill that would allow for 
biennial budgeting at the Federal level, which is one of the 
things we do in my home State of New Hampshire. And so I would 
love your thoughts about whether biennial budgeting would 
provide the kind of predictability you are looking for as well 
as from a management and personnel angle what challenges would 
biennial budgeting pose for you.
    Mr. Corsi. Senator, we tried biennial budgeting several 
years ago, and what I remember is the Congress was not willing 
to work that second year, which would have been wonderful 
because of the amount of time that is consumed in putting a 
budget together.
    Senator Hassan. Yes.
    Mr. Corsi. You cannot manage a 2-million-person workforce, 
when you do not get your budget until 6 months into the fiscal 
year. And, then you are working on finalizing that next year's 
budget, and you do not even have a budget for the current year. 
Anything that we can do to put more predictability in the 
budget process, to give managers flexibility, and at least look 
into that next year would be helpful. In my testimony, I 
recommended actually 2 years out to give at least a planning 
level for the workforce so that managers can make decisions in 
the current year based on a known level in those other years.
    A very good example is an agency that works to be very 
efficient, and they save manpower resources, only for that then 
to become the next line for reductions.
    Senator Hassan. Yes.
    Mr. Corsi. You cannot have incentivized managers to look 
for efficiencies unless they have some predictability that they 
are going to have that workforce level in the future.
    Senator Hassan. My thinking, too, has been that if you do 
the biennial budget and you get the budget done, then you could 
use the second year to measure and assess and work with 
agencies in planning the next budget as opposed to just 
constantly being in this cycle.
    I also had another question for you, Mr. Corsi. You 
recommend that OPM should require agencies to conduct retention 
and exit surveys, which strikes me as a very good idea. I am 
just curious about what is happening now.
    Mr. Corsi. In the Air Force--and that is my data point, we 
are conducting both exit and retention surveys.
    Senator Hassan. Yes, right.
    Mr. Corsi. We recognize the importance, because a lot of 
organizations do exit surveys. It is also very important to 
survey folks as to why you are staying with us. So we initiated 
that 2 years ago, and what you find is that one of the major 
reasons why people are leaving is leadership. Also one of the 
major reasons why people are staying with is leadership. So it 
really gets out to the point of training our managers, and, 
making sure that they are very competent. Making sure that we 
have mentoring programs that are targeting folks that, are the 
talent that we want to keep. And we have done that in the Air 
Force.
    Senator Hassan. OK. Thank you.
    I have about a minute and a half left, and maybe I will ask 
just a general question for the four of you, if you can comment 
on it briefly. We obviously have moved into an age where data 
and technical literacy is important. We are recruiting people 
who are capable with data and technology that is particularly 
important, and good cybersecurity hygiene on behalf of all of 
our employees is really important.
    In whatever way strikes you as best, can you just comment 
on that particular challenge, if you have any ideas about how 
we should be recruiting people who are good at improving our 
data literacy and cybersecurity?
    Mr. Cox. I think clearly you are going to have to be out at 
the best schools and universities offering competitive 
salaries, encouraging these folks to come, and also 
appropriating the money for the latest technology. OPM's 
computer system is almost as outdated as a Schwinn bicycle has 
become in this country.
    Senator Hassan. OK.
    Mr. Cox. So I think those are the issues.
    Senator Hassan. Thank you. Mr. Corsi.
    Mr. Corsi. Senator, I would go beyond just the cyber side. 
We have so many of our technical specialties in the laboratory 
and the engineering side of the house. You have to give hiring 
managers direct hiring authority. They need to have the 
wherewithal to make on-the-spot job commitments to individuals 
out there in order to be able to compete with the private 
sector--cyber is kind of the focus right now.
    Senator Hassan. Right.
    Mr. Corsi. It goes well beyond cyber. It is just giving 
managers direct hiring authority for the skills that they 
determine that they need.
    Senator Hassan. Thank you.
    Mr. Valdez. I would agree completely with all of that, and 
I would just note that the Chairman pointed out that it takes 
100 days to bring somebody on new, and that is the average.
    Senator Hassan. OK.
    Mr. Valdez. And when you get into these highly technical 
fields, you find that it probably exceeds that average because 
of the difficulty of bringing them on. So we just need to have 
a top-to-bottom review of how agencies are allowed to hire 
people and provide them with the mechanisms that enable them to 
bring on the best and brightest.
    Senator Hassan. Thank you. Ms. Johnson.
    Ms. Johnson. I certainly agree with Mr. Cox when he was 
speaking about the systems that we use within the Federal 
Government. I think updated systems for employees to work with 
would make it much easier to bring new employees on. Using 
systems that they have been trained on in the private sector as 
well as in school would benefit the government as a whole.
    Senator Hassan. Thank you, and I am sorry for going over my 
time.
    Senator Lankford. You are fine, and just a reminder to all 
Members, we will do a second round of questioning, and our 
second round will be open without a clock. And so if there is 
interaction that we need to be able to have, you are welcome to 
stay on that.
    I know Senator Carper could not stay based on his time 
requirements and wanted to be able to make a quick statement.
    Senator Carper. Yes, thank you so much. I just want to 
commend you and Senator Heitkamp for doing this, and picking up 
the legacy from Danny Akaka and George Voinovich, who worked on 
this in a bipartisan way is just hugely important.
    Ted Kaufman was a Senator for 2 years. As some of you may 
recall, he became Delaware's Senator when Joe Biden stepped 
down to become Vice President, and he did a great job. One of 
the things that he focused on was actually going to the floor 
once a month and thanking different people within agencies, for 
the work that they did. And I took that idea in the last 
Congress and focused just on one department, and that is the 
Department of Homeland Security (DHS) that we have a lot of 
jurisdiction over, as you know. They had the worst morale of 
any major agency in the Federal Government, and we put together 
with the help of this Committee a terrific leadership team. 
That was hugely important. They had the top senior ranks at the 
Department of Homeland Security were basically like Swiss 
cheese, just so many vacancies there. But we also made it clear 
that we appreciated the work that they were doing on an 
individual basis and a collective basis. I would just mention 
that.
    The other thing is--I have told this story before to my 
colleagues, but not to you folks. I listen to National Public 
Radio (NPR) coming in to catch a train in the morning from 
Delaware, and a couple years ago, they were reporting at the 
top of the news a story about what is it that people like about 
their work. It was an international survey. What do people like 
about their work? People like getting paid. People like having 
benefits. Some folks like the folks they work with, they like 
the place, the environment in which they work. Do you know what 
most people liked about their work? The fact that they knew 
what they were doing was important and they felt like they were 
making progress.
    One of the requirements for us is to look at ourselves in 
the mirror and say what can we do on this side of the dais to 
make sure that the Federal employees are empowered to make that 
kind of progress.
    Thank you. And thank you so much for your leadership.
    Senator Lankford. Thank you.
    A quick comment, and I am going to defer to Senator 
Heitkamp for questioning as well, and that is, Senator Hassan 
brought up biennial budgeting. You will find wide support for 
that on this dais and in many parts of the Senate. We have got 
to get a more predictable process on that, and biennial 
budgeting gets us there. That is by no means at a majority yet. 
We are working to be able to get to that majority and so we can 
actually get that moved.
    Along with that, Senator Portman and I have worked for 
several years on something we call the Government Shutdown 
Prevention Act. It gets us to a point that we no longer have 
the cliffs and threats of shutdown, but it pushes Congress to 
be able to get the budget done, puts in the criteria that is 
needed to be able to accomplish that. It does not help us to 
have unpredictable budgeting and to have budget cliffs all the 
time. We have to be able to have some predictable system, but 
the right pressure points, and we hope to be able to get that 
accomplished in the days ahead. Senator Heitkamp.
    Senator Heitkamp. Thank you so much, Mr. Chairman, and I 
could not agree more. I think most of us who come from State 
entities where you do biennial budgeting, where you have more 
predictability, find that to be a much more humane system and a 
much more predictable system.
    I want to start out with you, Mr. Valdez. As you heard in 
my opening statement, I am concerned about the hiring freeze 
and the morale and the kind of disruption that that uncertainty 
creates within a workforce. And I know that in your testimony 
you have said you believe the hiring freeze will have a 
chilling effect on the ability of the Federal Government to 
attract and recruit the talent that it needs. As you can see 
from my opening statement, we had a situation where people saw 
what happens when you do not have people in Federal positions.
    So I want to ask you: How does the freeze and the negative 
publicity surrounding that impact the agency's ability to meet 
its mission both here and in our States? And what message does 
a hiring freeze send to managers and employees about the value 
of their work, to Mr. Carper's point?
    Mr. Valdez. Well, I think you have raised a number of 
issues, but in terms of the chilling effect--people like 
certainty in their employment, and that is what we are 
referring to. If you think that the Federal Government is not a 
place where you can find reasonable employment and have a 
secure job, then that does have a chilling effect, and 
particularly on individuals who are coming into the Federal 
Government.
    Senator Heitkamp. And I just want to make this point: that 
frequently the vacancies that we have would be highly sought 
after, where they would be highly technical, and so you have 
three people, now someone leaves, and those two know that there 
is no way they can fill that gap, they get frustrated, and now 
they are bearing the brunt, and they can find employment 
someplace else. It is a meat axe to something that we should be 
looking at very strategically, and I have a concern about what 
that means for highly sought after employees, and basically 
people seeing public service as a career.
    Ms. Johnson, in addition to the immediate impact of the 
hiring freeze, I am also concerned about the long-term plan 
that was alluded to in the Executive Order. You have said that 
FMA steadfastly opposes any blind arbitrary plan to cut the 
Federal workforce. What do you think are the dangers of 
arbitrarily making these cuts to the Federal workforce? And 
what is the long-term impact of that pronouncement?
    Ms. Johnson. Yes, ma'am. I look at the arbitrary cuts 
across the Federal Government as being detrimental to the 
mission of the agencies. As any company, there are areas that 
we can cut the budget and the personnel within those agencies. 
But to do a blanket, across-the-board cut of all Federal 
agencies I think is going to be detrimental to them being able 
to move forward with the mission that they have been provided 
and putting people in those positions that have to take on the 
duties of others as their counterparts leave, that puts 
additional pressure on them and impacts the morale of the 
agencies.
    Senator Heitkamp. And isn't it likely that those people who 
can leave, when they do, and it is hard to fill that position, 
that it is going to have a cascading effect?
    Ms. Johnson. Oh, absolutely. It will impact them----
    Senator Heitkamp. Probably in those areas, whether it is 
cyber, where there is a whole lot of competition in the private 
sector for that kind of talent and skill set. But even, if I 
can say, if it takes 20 people in housekeeping to make up the 
beds and you only have 10, you will not stay in business very 
long as a hotel if you cannot hire to replace the people who 
are going to be making up the beds and cleaning the rooms. So 
maybe that is a context that can be appreciated in a different 
category.
    I have to just back out just for a little bit here, and I 
will be back, so I will defer the rest of my time, albeit very 
small amounts, to the Chairman, and I will be returning.
    Senator Lankford. That will leave me completely 
unsupervised in the hearing here as well. [Laughter.]
    Senator Heitkamp. There are cameras here.
    Senator Lankford. Always accountability.
    Let me run through several things, because there are quite 
a few issues that have come up. I do want to thank all four of 
you again for your written statements. They are very thorough, 
and they are also very practical, and that is very helpful to 
this Committee, because as we are trying to work through 
things, Mr. Cox, as you mentioned before, it may not be a 
legislative solution. It may be a training issue. And so the 
task of this Committee is not just forming new legislation; it 
is oversight for existing authorities. So I want to walk 
through a couple of things on that.
    I mentioned in my opening statement the 100 days now on 
average that it takes to go through the hiring process, that it 
was 90 days last year, it is now 100. So this problem is 
accelerating when it needs to get better. We have had hearings 
on USAJobs. We have had hearings on the process of actually 
doing the application, and the security.
    Let me ask just for the managers--and, Mr. Cox, if you want 
to jump in as well on this. There are 105 hiring authorities 
that currently exist. Now, 90 percent of the hires are done 
with just 20 of those hiring authorities, but there are 105. 
And most of you mentioned we need direct hiring authority as 
well for certain things.
    My question is not rhetorical. There are 105 hiring 
authorities. What is being missed at this point? What is 
slowing down the process? And what I repetitively hear is the 
hiring is the most important part of it. You do not have as 
many issues with firing and with oversight if you have good 
hiring. That involves managers getting a good list, working 
with H.R. to make sure that everyone knows exactly what you are 
looking for, getting that in place, and so when they go through 
the process, we actually get the right person at the beginning.
    So my interest is open to anyone who wants to jump in this. 
What am I missing? Where can this be fixed? Mr. Corsi.
    Mr. Corsi. Sir, a little history. About 2 years ago, the 
Air Force Personnel Center actually worked with the leadership 
at Tinker Air Force Base, the Sustainment Center leadership, 
put the whole hiring process on the table. They peeled back 
every process associated with it. The 80 days in a lot of ways 
is a misnomer because the clock starts when the manager 
actually puts a hiring demand on the system.
    What does not happen now is if you had good human capital 
and workforce planning, managers would be able to predict 
months in advance in terms of the skills that they need. The 
real test is how long does it take from the time the manager 
decides they need a replacement to the time the individual 
shows up, and that is much more than the 80 days.
    Senator Lankford. So take a guess. What is that?
    Mr. Corsi. I would say a guess is probably in the 150-day 
plus, range from the time they identify the need to the time 
the worker shows up. So as part of that major relook at I do 
not know how many individual processes--well over 100--it took 
about a year to peel that back. And, last summer we were in the 
process of implementing those process improvements Air Force-
wide. But a lot of the onus is on the manager, getting out in 
front, knowing what new workloads are coming in the future, and 
putting the demand on the system for either the new workload or 
when they know that they have populations that have 
communicated that they are going to be leaving the workforce. 
So that up-front piece is very important on the part of the 
manager side of the house.
    Senator Lankford. So how do we fix that? Because that is 
one of the key issues, is trying to get the managers to make 
sure that they are predicting what they need and then getting 
very specific on the criteria that for this task, this is the 
skill set that is needed. If you make it real open, they need 
to be a nice person, they need to be well dressed and 
professional. You have this huge pull, and you may or may not 
get the qualified person. If the manager gets very specific in 
what they need as far as criteria, that helps to be able to 
narrow the process to be able to work through. Am I correct or 
not correct on that?
    Mr. Corsi. Yes, Senator, you are correct.
    Senator Lankford. OK. So how do we get to the point where 
we can help our managers understand the importance of 
predicting in advance very specific in what they need, and so 
when we get to the end of it, we get better output?
    Mr. Corsi. So one of my recommendations is you have to 
require that the organizations have a human capital strategy, 
strategic plan, which forces them to look at the current 
workforce, what is coming down the pike, and require them to 
use analytics to get really smarter on the front end of this so 
that they can actually get the right talent.
    Senator Lankford. So do we have a good example of that? Is 
there an agency that is doing that well that we could look at 
as a model? I mean, that is a common----
    Mr. Corsi. Senator, I would say look at the recommendations 
that came out of what the Air Force and Air Force Materiel 
Command (AFMC) were able to do during that period of time. We 
know OPM went in and took a look at what the Air Force is 
doing. There is some great info. There was a lot of effort. 
Leadership was involved. They had to brief myself, AFMC 
leadership, the Sustainment Center commander on a regular basis 
as to the progress of what they were doing. And now we are in 
the process of rolling it out.
    So I do not lock into that 80-day. All I am looking at is 
from the time we put a demand on the system or knowledge of 
what we need to the time we get a warm body--and in past 
hearings, you heard about the time it takes for suitability 
checks. For an example, as part of improving the process, as 
coming out of that review, at Tinker Air Force Base and within 
AFMC, they used to bring an individual to in-process. They 
would work on filling out security papers. They would go home. 
They would work on the medical. Then they would go home. They 
now do that in one process once they get the individual on 
board.
    We are also trying to encourage commanders to take a little 
risk, bring the individual on board before the suitability 
check plays out. And then you have that caveat in there. If it 
is not successful, then you are not going to have employment 
with the Air Force. But get in front of that time it takes. 
Take that short risk.
    But that is all part of it. It is managers, it is OPM with 
its process. All of it has to work together.
    Senator Lankford. Well, I would certainly agree that what 
is happening in Tinker Air Force Base, in both the relationship 
with AFGE, with management, with the cooperation with the Air 
Force, everyone is trying to be able to make this work. We have 
a tremendous number of people that are coming aboard. That is 
the lead sustainment facility for the Air Force, and they are 
trying to be able to set the example for it.
    So that is a great example. I am pleased that you are able 
to say if we are going to look at anything governmentwide, look 
at Tinker Air Force Base and how they are trying to get it 
done. We can continue to work with Tinker to be able to help 
pull those ideas out, what is happening there in their hiring 
process. But at the end of the day, as I have chatted with 
several folks around my State, when you have somebody that is 
warehouse or forklift, for instance--I hear this all the time 
from McAlester, from the Army Ammunition Depot there. They are 
trying to hire a forklift operator. That same person goes and 
applies at five other places around McAlester that day, and 
then they also apply at the Army Ammunition Depot. Four months 
later, they get a callback from the Ammunition Depot. They have 
already been employed by somebody else 3\1/2\ months at that 
point. And so it is too slow of a process, and we are missing a 
lot of really great potential employees just based on the 
slowness of the process.
    Mr. Corsi. Senator, if we opened up the window--or I should 
say the authorities for the hiring officials to have more 
direct hiring authority, even a forklift operator at an 
installation could be very critical for other things to happen 
at that installation, so why don't we give the hiring manager 
direct hire authority when they determine that that skill is 
critical? And you can bypass some of those other processes to 
allow you to do exactly what you are saying: on-the-spot job 
offers, an individual can commit at that time.
    Senator Lankford. When you are moving munitions, that 
forklift operator is pretty essential and fairly important in 
the process.
    Let me move to Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Great. Thank you, Chairman Lankford.
    I wanted to come to the hearing today partly to support 
what Senator Lankford is doing, which is looking at the tough 
issue of management within the Federal Government. And we do 
not do that enough, in my view, in terms of oversight, so I 
thank him for that. And we have a great panel here. My 
questions may have been answered earlier, and I apologize if I 
am asking about topics that have already been addressed. But I 
have three basic questions.
    One is with regard to hiring, and one of my frustrations 
when I was at the Office of Management and Budget was our 
difficulty of competing with the private sector, particularly 
for technology jobs at the time, and that is still true, I 
believe. But we just do not have the speed of hiring that is 
the, real-world speed and, therefore, people take other 
opportunities. Even when they are willing to forgo a higher 
salary to be in public service, we cannot provide them that 
opportunity quickly enough. So comments further on that would 
be helpful.
    Second is on separation. When someone is not performing, 
how do you provide the ability to get that person out of the 
way of those who are performing? And I think this is a real 
problem in terms of morale, and I certainly found that when I 
was at OMB. As you know, some specific statutes have tried to 
deal with this, including on the defense side, and actually 
including on the Internal Revenue Service (IRS) side. But any 
thoughts you have on that, when someone is not performing, gone 
through the proper procedures, how do you ensure that that 
person is, given the opportunity to leave so that others can 
then take those positions and feel as though if they are 
performing well that their performance is being valued?
    And then the third one goes to the broad issue of 
performance measures, and you will recall the Program 
Assessment Rating Tool (PART) scores, which were not without 
controversy, which was an attempt to measure the performance of 
agencies and also measure the performance of personnel. Part of 
PART was to look at how people were being motivated, empowered, 
and whether that was working.
    We have a new administration. We have a new opportunity to 
look at how to encourage better management in Federal agencies. 
Broadly, what do you all think of that?
    Let us start, if we could just quickly, on this issue of 
hiring. Maybe, again, that is something that has already been 
discussed, and I like your idea, Mr. Corsi, of giving more 
authority to the people on the line who are making the hiring 
decisions so you can cut back on the layers of bureaucracy. But 
any other quick thoughts on that?
    Ms. Johnson. I would like to speak about the budgeting for 
hiring, and that is very critical that we have that budget in 
place. We have talked about possibly a 2-year budget plan that 
allows the agencies to know what they are going to be funded 
for.
    I know at Cherry Point we get our workload from other DOD 
agencies, and when they do not know what their funding levels 
are going to be, it is very difficult for them to give us the 
forecast on what workload they are going to be sending in to 
us. And with our staff being very trade-driven and getting that 
right skill set in those positions, when we are not funded or 
do not know what that funding is going to be up front, we 
cannot bring someone in off the street and just put them into 
the sheet metal world and say, ``Go forward and make an 
aircraft.''
    So we need someone that can be in there and can be trained 
so that we have the adequate staffing for those positions. So I 
think having the budget in place early instead of waiting until 
half of the year has gone by and then we are trying to bring 
additional funding is and support the requirements that now the 
customer has been able to fund, it is very difficult trying to 
flex our work staff to accommodate that workload.
    Senator Portman. Yes, and, Ms. Johnson, if you think about 
this, you are competing with the private sector. They also have 
ups and downs, in the private sector some of the companies that 
you deal with, that you contract with. But they have a more 
predictable budget. In other words, they make a decision. They 
may end up not being in the black the whole year because of 
that, and then they may have to make adjustments. But typically 
that is after the fact. But in the meantime, they kind of know 
what their budget is going to be for the year, and having a 
couple years--and most companies have, a much longer period of 
time to train people and get them up and so on--would be a 
disadvantage.
    Ms. Johnson. Right, and that would also help us with the 
succession planning and knowing which positions were critical 
and that we needed to make sure that we were able to hire 
people or have people in the positions for potential retirees 
because of our aging workforce, and with our limited budget and 
not being able to bring in new employees, to have them trained 
up, oftentimes restricts our ability to be able to seamlessly 
move forward when we lose----
    Senator Portman. How about the separation issue? Anybody 
want to talk about that quickly?
    Mr. Valdez. I would be happy to. In my testimony I talked 
about forum shopping, and I think that that is probably the 
most effective way we can deal with this issue, which is having 
a single avenue of appeal for performance issues. Currently, 
there are multiple avenues of appeal where they can drag out 
separations, by appealing to union grievances or EEO processes 
or IG complaints. And so I think we could speed up the system 
that way.
    I do not think anybody at this table feels that we should 
keep bad performers on, and we are all interested in expediting 
the removal of employees who should be removed for performance.
    I would like to return to the hiring issue for just one 
second. I think part of what we are talking about here is a 
systemic issue in the Federal Government. No corporation in the 
world would have a human resources office that does not serve 
as the principal adviser to its operating units on issues like 
hiring, on issues like separation. And, unfortunately, I think 
what has happened with OPM is that they delegated much of the 
authorities that they have to the agencies on transactional 
issues, how you hire, et cetera. But there was not a concurrent 
upgrading of OPM to serve as that corporate adviser for the 
Federal Government.
    Let me give you a specific example. I was heading up an 
H.R. shop, and my senior management directed me to come up with 
a workforce analytics plan to do exactly what Bob was talking 
about in terms of figuring out what our retirement rates were, 
et cetera. So I went to OPM and said, ``Can you help me out? 
Because I am not an expert in this area.'' And it turned out 
OPM was not an expert in that area. But if you think about it, 
they should be, and they should be providing to agencies advice 
about how to manage their workforces and make it easier for 
them to do that.
    I have in front of me, Title V of the U.S. Code that 
governs personnel in the Federal Government. I also have three 
volumes of OPM guidance on this. No Federal manager can 
possibly understand all of this, and so, when you mentioned, 
Mr. Chairman, that there are 105 hiring authorities, that is 
the first time I have heard that number. When I was in the 
Federal Government, I probably knew of 5 or 10 of them. So if I 
was able as a manager to be trained by OPM to understand what 
was available to me, it would make a much more effective 
Federal Government, I think.
    And then in terms of performance measures, I am a big fan 
of PART. The agency where I worked at was one of the first 
PARTed, and it was a refreshing exercise. But I think, we 
should build on that experience in a way to incentivize 
agencies and personnel to relook at how they view risk and 
reward within the system. OMB just sent out information about 
Revised Circular A-123 and talked about enterprise risk 
management. Well, that is a fundamentally different way of 
viewing how you run the Federal Government. You want to 
encourage risk. You want to encourage appropriate risk and 
reward it. And that is the same thing with performance measures 
and performance management for Federal employees. You want to 
encourage risk. You want to encourage rewards for those high-
flying, innovative employees.
    Senator Portman. Thank you. My time has expired, so I do 
not want to take more than I should, but if there were other 
comments on the performance measures----
    Senator Lankford. I think Mr. Cox is going to burst if he 
does not get a chance to comment on that.
    Senator Portman. Great. Mr. Cox, I would love to hear your 
comments.
    Mr. Cox. Senator Portman, I agree, and in looking at 
removing poor performers, the probationary period I do not 
think is adequately looked at and reviewed by managers. A high 
number of Federal----
    Senator Portman. That is the one-year period?
    Mr. Cox. High numbers have a 2-year period. I believe now 
all of DOD is 2-year. Most Title 38 in the VA are 2 years. So I 
would say we are moving pretty much to way over 50 percent of 
the Federal Government, if not 70 percent, in a 2-year 
probationary period. There needs to be strong management 
training. There needs to be ongoing dialogue, interacting with 
employees, evaluating their performance.
    I supervise and manage employees myself in AFGE. I know 
usually within 3 to 6 months if they are going to be able to 
make or not. And many times people do not pay attention to that 
period, and I think that is a very valuable thing.
    Senator Portman. Valuable to----
    Mr. Cox. Basically, in probationary period it is, ``Thank 
you very much. Go away.'' But even career employees, it is a 
30-day notice. I notify you today. Thirty days from today you 
can be removed off the rolls; you are not paid.
    Now, the grievance process may go on. You may be able to 
forum-shop, but you can only choose one forum. Once you have 
elected it, that is it. You cannot keep jumping from one system 
to the next.
    Again, if people continue on the rolls for long periods of 
time, I would look to my management colleagues. The law is very 
clear. Thirty days, you are out that door, and that is your 
problem.
    And back to the long time of hiring, the issue of the 
investigations, the security clearance, OPM has basically 
contracted all of that out. In 1984, from the day I asked for 
an application to go to work at the VA as a registered nurse, I 
filled it out, was interviewed, was selected, went through a 
security clearance, had a physical, gave notice of my other 
job, and was on the job in less than 28 days.
    Senator Portman. That is because you are such an 
extraordinary human being. [Laughter.]
    Mr. Cox. They were doing a fair number. Nowadays, I will be 
honest with you, the security and background and suitability--
we do not want people that are not suitable working for the 
government, and our environment has created some of that. But, 
still, I agree with what my colleagues said, that many times 
you can bring people on, and if you get back bad information, 
there is still a probation period; you can let them go.
    Senator Portman. That is very helpful. I appreciate it. 
And, by the way, on the clearance process, we did pass 
legislation--I think it was probably 2 years ago now--to try to 
not just expedite it but put some more resources against it 
because of the backlogs. And that is a huge issue with regard 
to competing with the private sector. And I appreciate your 
talking about the appeal process, too. Everybody wants to have 
an appeal. The question is: How can you make sure that appeal 
is fair but also something where you are not, again, giving 
other people who are performing well the sense that, it does 
not matter? And I think that is an important part of empowering 
people.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Portman.
    Can I read a truly bold statement--and I like bold 
statements--that Mr. Cox wrote in his written testimony that I 
would love for us to be able to have a conversation on it? So, 
Mr. Cox, without embarrassing you, I am going to quote you 
here.
    ``When poor performers are not dealt with it is never 
because the civil service laws or procedures are too difficult 
to navigate, but rather because some managers . . . either do 
not want to take the time and effort to properly document poor 
performance and remove or demote poor performers, or because 
they lack the knowledge, skills, and ability to do [that].'' I 
would love to have a conversation about that, because I have 
heard this back-and-forth as well. Senator Heitkamp.
    Senator Heitkamp. If I can just kind of build on that, 
because I think one of the areas that I completely agree with 
Mr. Cox on is in management supervision, so you get the 
absolute best floor nurse, you promote her to a role where he 
or she is going to do scheduling, maybe not even interested in 
it, but in order to move up the pay ranks, that is a promotion, 
you are going to do it. And we do not say here is the bundle of 
supervisory training that we are going to give you to see if 
this is something that you can do. In fact, maybe the best 
nurse manager would be somebody who is not a very good nurse. 
So, that is one of the challenges. And included with this 
issue, I would like to throw in the bill that I have 
introduced, which is the supervisory training bill. I am going 
to introduce it again in the 115th.
    So to Senator Lankford's point, how much would supervisory 
training, really quality supervisory training, take care of a 
lot of the problems that we are talking about today rather than 
simply, an arbitrary, now we are going to reduce, probationary 
times maybe easy fixes that do not really fix anything?
    Senator Lankford. Mr. Corsi.
    Mr. Corsi. Senator, I would agree with Mr. Cox on the issue 
of managers, but you also have to understand the managers are 
torn many different ways day in and day out. The human capital 
experts on employee relations have been forced to reduce their 
staffs over the last 15 years. In the Air Force, I would say we 
took a 50 percent reduction on our personnel management side of 
the house, because with all the budget challenges, you protect 
the mission first and then the support side where those staffs 
have taken a disproportionate hit.
    Managers day in and day out are weighing the value of 
pursuing disciplinary actions and knowing the commitment on 
their part that it is going to take to pursue those versus 
turning a blind eye, which is not ideal, but they are making 
those value judgments.
    The 2-year probationary period would go a long way in now 
giving managers the time to deal with performance issues. 
Unless the manager was very aggressive, going through all the 
process, even with the one-year probationary period, it is very 
difficult to get everything that needs to get done within that 
first year. The 2-year probationary period, to be quite honest 
with you, would give management the flexibility to be able to 
go through that due process working with the employee, 
performance improvement plans, in order to work that process.
    Senator Heitkamp. So we have just heard from Mr. Cox that 
we have a 2-year probationary period de facto building--in 
fact, 70 percent. What is the proof that a probationary period 
actually accomplishes what you suggest it might accomplish 
given that 70 percent of the workforce is already under a 2-
year probationary period?
    Mr. Corsi. The Department of Defense, the National Defense 
Authorization Act (NDAA) of 2015, put the 2-year probationary 
period in effect. All I would say, it is probably a little too 
soon--and, again, since I retired the end of October, I do not 
know what that experience has been.
    Senator Heitkamp. I just want to say that I managed, by 
this town not a very big workforce, but I ran big organizations 
in North Dakota that had property rights to their jobs and you 
had to go through the process. It would never have taken me 2 
years to know that I had somebody I did not need in my 
workforce.
    And so to suggest that this is the end-all and be-all is 
problematic to me, because it may, in fact, be that this person 
would be a wonderful person with the right supervisory skills, 
could, in fact, emerge as one of the best employees you could 
ever have. But if you do not have attention focused by managers 
on developing the skill sets of who they are, I do not see any 
amount of time--what is the old idiom? Work expands for the 
time that you are given to fill it. And, 2 years, 15 months, I 
do not know. It does not seem to me that that is the fix to the 
problem we have, that we have public employees who stay on the 
rolls too long in an ill-fitting position, and we have managers 
who do not know how to inspire and train employees to be good 
employees.
    Mr. Valdez. So I completely agree with you, and I 
completely agree with Mr. Cox, and----
    Senator Heitkamp. And Senator Lankford, completely agree 
with Senator Lankford. [Laughter.]
    Mr. Valdez. Yes. Everybody. I am in complete agreement. One 
of the first things that happened to me when I was a new SES 
was I denied an employee a promotion, and that employee then 
filed a grievance on me for age discrimination. And it took me 
6 months to resolve that, and the end result was that, I denied 
her the promotion. But it was wearing, and it was very time-
consuming.
    After that, I became the manager of the Department's EEO 
shop, and what I found there was that there was a lot of forum 
shopping. People would come in; they had had an adverse 
personnel action against them; and they would be seeking a way 
to redress that, address that through the employment, through 
the EEO process.
    I really support your notion of supervisory training 
because it certainly is needed. Managers do need to know what 
their rights are, and in my testimony we talk about this a lot. 
But we also talk about agency culture. It has now come to the 
point with a lot of agencies--and I will speak mostly about the 
Department of Energy--where it is considered to be too much 
trouble to deal with poor performers and that, as Bob said, you 
have so many constraints on your time that you just want to 
make these things go away.
    Senator Lankford. Can I ask for a clarification? Is that 
because of the paperwork requirement on it? The number of 
hearings?
    Mr. Valdez. Yes.
    Senator Lankford. Because that is something you have 
mentioned a couple times, because one of the things that has 
come up often is if managers document and show lower 
evaluations and actually have the meetings with someone saying, 
``Hey, you are not performing. I am going to put this in your 
file, and we need you to be able to perform better,'' then that 
dismissal goes a lot faster. But if managers are not putting 
paperwork in the file and they are not having those meetings, 
then this becomes a lot more complicated. Right or wrong?
    Mr. Valdez. Well, even with proper documentation, the 
employees can still go forum shopping. They can claim that you 
rated their performance adversely because you discriminated 
against them, for example, or that you were favoring other 
employees and not them. So that goes into separate processes 
and gets you involved in, a number of different forums.
    But I think the real issue we are talking about here is 
that you need to change the culture of the agency, and that can 
be done with supervisory training. But you also need to make it 
clear to managers and supervisors that they have a 
responsibility to the taxpayer that they will deal with poor 
performers as part of their everyday job.
    Senator Lankford. Right. Is that part of a supervisor's or 
manager's yearly evaluation of how they handle it? When they 
are evaluated--because I asked OPM for evaluation, and I have a 
copy of the SES Performance Management System Executive 
Performance Agreement and the annual evaluation. There is a 
section in it, as I go through it, that talks about leading 
people, but it has this long list of all the things that are in 
that criteria. One line of it is: ``holds employees accountable 
for appropriate level of performance and conduct, seeks and 
considers employee input, recruits, retains, and develops 
talent needed to achieve high-quality, diverse workforce that 
reflects the Nation with skills, need to accomplish 
organizational performance.'' But it is this incredibly long 
list of all the things that are in it, and part of my question 
is, when managers are held to account in their evaluation, is 
this something that is considered important for their 
evaluation so they know it is important for the way that they 
manage and evaluate?
    Mr. Valdez. In my experience, no.
    Senator Lankford. OK. Any opinion on that as well, Mr. 
Corsi or Ms. Johnson?
    Mr. Corsi. Senator, in my opinion, it does not get the 
visibility in the annual performance cycle.
    Senator Lankford. OK. Ms. Johnson.
    Ms. Johnson. I know within our agency there are 
requirements in our performance appraisal for supervisory 
functions that we are graded on. To say that it is truly a 
reflection of how we are graded at the end, I do not know that 
that is a completely true statement.
    Senator Lankford. OK. Most people live up to what they know 
they are being scored on. My daughter studies the most on the 
things that will actually be on the test. We all do. And if I 
know at the end of the year there is going to be a test on how 
I did hiring, how I put together the criteria for that, how I 
documented issues, both good and bad, how I encouraged 
employees in their training, how I helped facilitate a better 
workforce--if I know that is a major part of my evaluation, I 
will make sure that I accomplish that because that is a part of 
the evaluation. And I would recommend--I know we have not 
talked about this yet, but that we get an opportunity to be 
able to work with OPM on how everyone is evaluated and what are 
the key criteria of that. Mr. Cox.
    Mr. Cox. Senator, I am thinking back to my days of working 
in the VA Medical Center. There were various units that always 
had people wanting to go work on that unit, number one, because 
it was a great nurse manager, the care for the veterans was 
superb, the ratings that the veterans gave were great. 
Everybody seemed happy; there was a give-and-take mode of 
always getting the scheduling done, the work done. If there was 
someone that was slacking, the group would immediately take 
care of it.
    Then there would be a unit where no one wanted to go to 
work----
    Senator Lankford. Right.
    Mr. Cox [continuing]. That it was disastrous all the way 
through, and it usually had to do with the management skills. 
And I suspect some of my colleagues here probably have managed 
units where they are always trying to get people to go to work 
and other places where people are begging, ``Move me to that 
section.''
    I would welcome the opportunity for AFGE, Congress, and the 
Managers Association and SES, for some of us to do some type of 
studies in the workplace. There are things that motivate 
people, and what is it that creates good managers, that makes 
people want to go work with that group and perform well? And I 
find good leaders always seem to attract good employees, and 
that even makes them a better leader.
    So I do not have all that pulled together, and I am not 
quite the researcher, but I have seen this happen well in 
organizations.
    Senator Lankford. Thank you.
    Ms. Johnson, were you about to say something as well?
    Ms. Johnson. I was, and it actually will add to what Mr. 
Cox has mentioned. I think oftentimes within the Federal 
Government we bring people in on a technical side. They are 
very good at that. And as Senator Heitkamp had mentioned, we 
move them into management, and they may not have management 
skill sets to be successful in managing. But they feel like 
that is the only way that they can continue to progress their 
career, is by going into a management field.
    So having that dual track that I know you support to 
continue to progress their career in the technical side as well 
as having an opportunity to bring in managers that have those 
soft skills and have those management skills, that can be 
successful in managing the workforce, and know how to manage a 
workforce I think is very important. And providing adequate 
training for new managers whenever they come into the 
workforce, not only for dealing with the processes but ensuring 
that they have that soft skill as well to be able to 
successfully manage employees I think is very important.
    Senator Lankford. Mr. Valdez.
    Mr. Valdez. I would encourage you, Senator Heitkamp, to 
think more expansively about supervisory training. At the 
Senior Executives Association, we are highly supportive of 
building a leadership pipeline within the Federal Government. 
Leading people, is fundamentally different than managing an 
organization.
    Senator Heitkamp. That is right.
    Mr. Valdez. And so, we are supportive of developing leaders 
down at the GS-9, GS-11 level and providing them with the 
skills that they will require as they move up the management 
ranks to be able to effectively lead organizations and get to 
the point where, Mr. Cox was saying they are a preferred 
employer. Currently, there is no such thing in the Federal 
Government.
    Senator Heitkamp. Can I ask you, are you familiar with my 
bill?
    Mr. Valdez. No.
    Senator Heitkamp. OK. It would be great if you would look 
at it.
    Mr. Valdez. OK.
    Senator Heitkamp. Make any suggestions that your 
organization wants to make. I totally agree. I think that you 
can take that great nurse and during the period of time provide 
leadership, have them understand the dynamics of the group, and 
actually move them into management if you build leaders. I 
could not agree with you more. I think our challenge right now 
is that we look for the easy fix. None of this is easy, and 
growing leadership and growing management skills--because it is 
two sides of the same coin--is not easy. But people have to see 
there is some benefit in their career to take that on. Let us 
talk about the senior nurse or, in my case--I will give you a 
personal example. One of my first jobs was working in a legal 
section of the tax department in my State. The man who headed 
that up, the general counsel, probably one of the best 
attorneys in the State of North Dakota and probably one of the 
best attorneys I have ever worked with, and I have worked with 
great attorneys. He was not exactly a good manager. But I 
learned so much from him that it gave me the confidence to move 
forward. Rather than putting the management responsibility, we 
should reward him for being a mentor in place, for building the 
capacity and building the leadership.
    And, I understand that there has to be a hierarchy, but the 
best organizations have an invisible hierarchy, in my opinion. 
They have a unified, consistent purpose in what they are doing, 
and people know everybody's role, they know what their 
responsibilities are, and they come to a point of achievement 
together.
    And that is not easy all the time when you are trying to 
take--my dad's army, do not ask questions, just march, that is 
not the army anymore, and it would not be successful recruiting 
people to that model anymore. We have to get away from old 
ideas and old thinking about hierarchies and start thinking 
about leadership and management.
    I totally agree. I would welcome any input that you have. 
We have not introduced it yet, but I am curious about what you 
think we could do more of.
    Mr. Valdez. Well, let me give you one further input then 
while I have the chance, training budgets have been slashed 
throughout the Federal Government. It is usually one of the 
first things that go. And I think one of the things that you 
should consider when you are thinking about this training is 
giving agencies funding and finding ways to carve out dedicated 
line item funding for this kind of training, because it does 
not exist and it is the first thing that is cut.
    Senator Lankford. I would just say you are not going to 
find disagreement with us on that. You and I both know training 
is often farmed out to some other outside group, and they come 
in, and sometimes the employees find it to be helpful and 
sometimes they do not. And sometimes the way they do training 
ends up on somebody's waste list at some point, and someone 
says, ``What in the world are we paying for that for? ''
    So the only thing I would say on training is let us make 
sure training is effective and that we are not just saying we 
are supposed to do training on a budget, this is a nearby 
contractor, they will come do it for it, and we can check the 
box that that training was done, when really no one saw it was 
useful at the end of it.
    Senator Heitkamp. I have another appointment that I have to 
rush off to. I just want to also ask that a Statement of the 
National Treasury Employees Union be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The statement of the National Treasury Employees Union appear 
in the Appendix on page 86.
---------------------------------------------------------------------------
    Senator Lankford. Without objection, so I think we are OK.
    Senator Heitkamp. And I look forward to a continuing 
discussion. I want to thank Senator Lankford for making the 
Federal workforce a major priority of this Committee. We 
started that work last Congress. We are going to continue. So 
do not think this is your one chance. We want to hear from you.
    I am always amazed when we get into these discussions--no 
matter what perspective you have, we kind of come down to the 
same thing. And so that means there is an answer, and that 
means that if we make the investment of time on the oversight 
side of the dais to listen to what you all are challenged with, 
that we can make real progress. And maybe we can have fewer 
employees if we have more productive employees, happier 
employees, less turnover. And so there is a way that we can do 
this without breaking any budgets, I guess is my point.
    Senator Lankford. Yes, and we will be here about another 6 
minutes or so. We are about to wrap this up as well, so if 
everyone is trying to wonder if we really are going to go to 7 
p.m., we are not. [Laughter.]
    We will be about another 6 minutes.
    One of the things that I would say is we are building a 
bucket for Mick Mulvaney when he comes in and leads OMB. Our 
conversations with him have already been that is not just a 
budget office, that is a management office as well, and we 
fully expect the management side to be aggressive on trying to 
fix some of these broken systems that are there.
    It is something that Beth Cobert worked very hard on at OPM 
when she was there and faced a lot of frustrations on it as 
well. We will anticipate a new OPM Director to also step in and 
to be able to help finish out some of the work that they had 
already started, and let us see what we can get done. So that 
is part of the oversight. That is one of our buckets.
    The other bucket is what do we have legislatively that is 
either in the way, that is overly complicated, or that needs to 
be fixed with a process system. And so as you have ideas on 
these things, we are very welcoming to those things, both 
oversight ideas and ways we need to engage or legislative 
ideas.
    I do want to bring up one thing that has been mentioned a 
couple of times just to be able to get input because it is new. 
Mr. Cox, you mentioned this as well in your testimony, and that 
is the DOD new process of New Beginnings and trying to work 
toward a merit-based system and addressing in some ways the GS 
system and to say, ``Is there a better way to do this? ''
    Now, I understand this is actually a 5-hour conversation we 
are going to cram into 5 minutes, but it is new, it is being 
rolled out. Part of it for us is the oversight part of it. Part 
of it is--I guess the large part of my question is: What 
concerns you and what excites you about that process of the New 
Beginnings as we are looking at it being rolled out at this 
point? So an open question of what concerns you, what excites 
you. If you have any specifics on it, that would be very 
helpful. Mr. Cox, do you want to go first?
    Mr. Cox. What excites me is that it has been a joint, 
cooperative partnership between labor and management, working 
through it together, figuring out how to best recognize and 
take care of good employees, and also for managers to listen to 
the input of the unions as to how to measure and to evaluate 
performance management.
    The holdback, is working well at the top as it moves down 
to actually where the rubber meets the road between a very 
front-line supervisor and a front-line group of employees, that 
there is probably not as much attention, the level of training, 
the level of commitment for those parties to work together as 
well as the parties at the Pentagon level and various parts of 
DOD.
    Senator Lankford. Yes, in your written testimony, you made 
an interesting statement as well when you said that managers 
need to have some courage, which I thought was an interesting 
statement to make, and that is to be able to address the issues 
that are there and to be able to confront those and not just be 
passive, and it is how I took that. But just also to be able to 
step in and affirm. I mentioned earlier the statistic that 22 
percent of the Federal workforce feels like the promotions are 
done based on merit. I did not mention before in a similar 
study there that 37 percent of Federal employees are affirmed 
for positive things in the workplace, which would tell me the 
vast majority of them do not even feel like they are verbally 
affirmed for taking on and doing a good job, which by far most 
of them are. So that affirmation part of it I think is also 
very important as well to be able to figure out, so maybe 
looking for how this works and it works through.
    Mr. Corsi, do you want to make some comments on it?
    Mr. Corsi. Senator, I'm very positive on New Beginnings, 
working with the unions. We went from a pass-fail system to now 
three tiers where you can recognize outstanding performance. 
The biggest challenge is it requires a manager to have more 
face-to-face discussions with the member, talking about 
performance, talking about expectations and feedback, more 
dialogue. So there are no surprises in the evaluation process. 
If you can now tie New Beginnings to a system like the 
demonstration projects that are out there right now, which are 
all pay for performance, now you got the evaluation system to 
go with the pay system, which can be a win-win situation.
    Senator Lankford. OK. That is great. Mr. Valdez.
    Mr. Valdez. You said it correctly at the beginning when you 
said that we have a 20th, maybe even a 19th Century, workforce 
structure for 21st Century missions. And so the Senior 
Executives Association is fully engaged, and we are ready to 
work with you and anybody else to get a modernization of the 
workforce. We are supportive of New Beginnings, but we would 
also like to see a wholesale top-to-bottom review of the 
General Schedule and also, frankly, of the Senior Executive 
Service. What is its current role and purpose within the 
Federal Government today?
    Senator Lankford. OK. So let me throw an unfair question 
out to you. How long does New Beginnings need to be out there 
to get a good feel for what is working and not working before 
it transitions into a GS evaluation? Is that 5 years we need to 
watch? Is that 3 years? Are there other demonstration programs 
that have been out there much longer? Here is what I hear and 
the reason I bring it up. I consistently hear people say, ``We 
need to address the GS system.'' And then right behind it, they 
say, ``And that will be the most painful experience the Federal 
Government has taken on in decades. I would never, ever touch 
it if I was you. But we need to do it.''
    So the question is: How do we get a good read for it to 
know this works well, management, AFGE, everyone looks at it 
and says, ``This is a good, functioning system, let us start 
trying to multiply it out to other places''?
    Mr. Corsi. Senator, I would say it is probably going to 
take 3 to 5 years.
    Senator Lankford. OK.
    Mr. Corsi. Because they phase the implementation to begin 
with for parts of DOD, and then once everybody is transitioned, 
it is going to take 2 years, 3 years beyond that to get a good 
assessment whether we need to make some adjustments.
    Senator Lankford. OK. Thank you. Ms. Johnson.
    Ms. Johnson. As far as the New Beginnings, I think that is 
very positive, having additional conversations with our 
employees, and ensuring that they understand what their goals 
are. Oftentimes there is conversation at the beginning of the 
grading period and then one at the end of the grading period, 
and that does not give the employees the opportunity to 
understand how they are performing during that period so that 
they can make improvements, give management the opportunity to 
give suggestions to the employees on how they can improve their 
performance, and also to recognize their good performance 
during that period instead of waiting until the end of the 
grading period to even recognize good performance.
    And as far as how long we need to look at the system, I do 
feel like that there were some good opportunities within the 
National Security Personnel System (NSPS), whenever that was 
rolled out. I think that there were areas that it needed some 
improvement. But I think instead of trying to make that system 
better, we ended that system and went back to the GS system, 
which is very old and does not lend itself to recognize our 
good employees and be able to adjust within that system for 
hiring practices.
    And so I do not know that I can put a timeframe on it, but 
I do think that we need to make sure that we are looking at the 
system and making sure that we have utilized all of the 
opportunity for a new system before we just say it is not going 
to work.
    Senator Lankford. Right. OK. There is a tremendous amount 
we can still talk about. As I mentioned before, several of you 
put things in your written testimony that we never even got to 
today. Those are a part of the record. They are not being 
ignored. Again, we could be here a very long time talking 
through those issues. I do appreciate both your written 
statements and oral statements and the conversation that we can 
have. If we can multiply this type of conversation to multiple 
other places, it would certainly be helpful.
    And so we look forward to working with Mick Mulvaney, with 
new OMB and OPM leadership, to be able to help share some of 
these ideas within them as well and be able to see where we go.
    So before we adjourn, I do need to announce that we hope to 
have a hearing on Thursday, March 9, to discuss the issues 
surrounding the use of data and science in the regulatory 
process.
    That will conclude today's hearing. I do, again, want to 
say thank you to you before we conclude for all the work and 
the preparation that you did on this.
    The hearing record will remain open for 15 days until the 
close of business on February 24 for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
